   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Office of Audit Services
                                                                       Region I
                                                                       John F. Kennedy Federal Building
                                                                       Room 2425
                                                                       Boston, MA 02203
                                                                       (617) 565-2684



September 1, 2010

Report Number: A-01-10-00600

Susan Besio
Commissioner
Department of Vermont Health Access
312 Hurricane Lane, Suite 201
Williston, VT 05495

Dear Commissioner Besio:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Vermont’s Compliance With the “Reimbursement
of State Costs for Provision of Part D Drugs” Medicare Demonstration Project Requirements.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-10-00600 in all correspondence.

                                             Sincerely,




                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services



Enclosure
Page 2 - Susan Besio


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF VERMONT’S COMPLIANCE
  WITH THE “REIMBURSEMENT OF
STATE COSTS FOR PROVISION OF PART
       D DRUGS” MEDICARE
    DEMONSTRATION PROJECT
         REQUIREMENTS




                       Daniel R. Levinson
                        Inspector General

                        September 2010
                         A-01-10-00600
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. Despite CMS’s efforts to ensure a smooth
transition to Medicare Part D, some full-benefit dually eligible beneficiaries did not enroll in or
were not assigned to a Medicare Part D plan. As a result, some States paid for these
beneficiaries’ Medicare Part D drugs during the transition period.

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967, as amended (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly
made applicable to Medicare Part D in § 1860D-42(b) of the Act). On February 14, 2006,
Vermont submitted its “Section 402 Demonstration Application” (Medicare demonstration
application) to CMS. By submitting its Medicare demonstration application, Vermont agreed to
pay for full-benefit dually eligible beneficiaries’ drug claims overseen by the Department of
Vermont Health Access (the State agency). The State agencies participation in the
demonstration project covered drug claims with dates of service from January 1 through March
31, 2006, and related administrative costs from January 1 through September 1, 2006.

CMS reimbursed the State agency a total of $5,440,747 for Medicare demonstration project drug
costs.

OBJECTIVES

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.

SUMMARY OF FINDINGS

The State agency complied with certain provisions of the Medicare demonstration project
application when claiming drug costs for full-benefit dually eligible beneficiaries. For example,
the State agency submitted claims only for drug costs incurred during the Medicare



                                                  i
demonstration project’s effective dates and only claimed drug costs to the Medicare
demonstration project.

However, the State agency claimed costs for drugs excluded from Medicare Part D
reimbursement. Specifically, the State agency was reimbursed $70,027 for Benzodiazepines
through the Medicare demonstration project. According to State agency officials, the State
agency was improperly reimbursed for excluded Medicare Part D drugs through the Medicare
demonstration project because of an administrative oversight.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $70,027 to the Federal Government and

   •   strengthen its internal controls to ensure that only allowable drugs are claimed from
       Medicare.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Benefit .........................................................1
              Full-Benefit Dually Eligible Beneficiaries ..........................................................1
              Medicare Part D Demonstration Project ..............................................................1
              Vermont’s Participation in the Medicare Part D Demonstration Project ............2

          OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................3
               Objectives ............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          MEDICARE DEMONSTRATION PROJECT DRUG CLAIMS ...................................4

          MEDICARE DEMONSTRATION PROJECT DRUG COSTS......................................4

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS ....................................................................................5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Benefit

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-Benefit Dually Eligible Beneficiaries

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. CMS took numerous actions to ensure that full-
benefit dually eligible beneficiaries continued to receive medications during the transition to
Medicare Part D. For example, if a beneficiary did not choose a prescription drug plan by
December 31, 2005, CMS randomly assigned the beneficiary to a plan. In addition, to facilitate
enrollment of dually eligible beneficiaries at the point of sale, CMS implemented a new
eligibility inquiry process for pharmacies to verify Medicare Part D plan assignments and
employed contractors.

Despite CMS’s efforts to ensure a smooth transition to Medicare Part D, some full-benefit dually
eligible beneficiaries did not enroll in or were not assigned to a Medicare Part D plan. As a
result, some States paid for these beneficiaries’ Medicare Part D drugs during the transition
period.

Medicare Part D Demonstration Project

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967, as amended (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly
made applicable to Medicare Part D in § 1860D-42(b) of the Act). The demonstration project
permitted Medicare to fully reimburse States for full-benefit dually eligible beneficiaries’
Medicare Part D drugs to the extent that the costs were not recoverable from a Medicare Part D
plan. 1

To participate in the demonstration project and receive reimbursement for their incurred costs,
States were required to submit a signed “Section 402 Demonstration Application” (Medicare

1
 In addition, the demonstration project provided payments to States for low-income subsidy-entitled beneficiaries’
(partial-benefit dually eligible beneficiaries) Medicare Part D drugs and for certain administrative costs.


                                                         1
demonstration application) to CMS. By submitting Medicare demonstration applications, States
agreed to (1) require pharmacies to bill the Medicare Part D plan before relying on State payment
(i.e., the State was the payer of last resort); (2) provide specific information to CMS on Medicare
Part D drug claims and administrative costs; (3) ensure that claims submitted were for covered
Medicare Part D drugs; (4) separate Medicare demonstration project claims from those payable
under other programs; (5) submit claims only for drug costs (not including beneficiary cost
sharing) and administrative costs incurred during the Medicare demonstration project’s effective
dates; (6) report to CMS the number of claims, beneficiaries, and expenditures on a timely basis;
and (7) ensure that Medicare funding was not used as State Medicaid matching funds (State
Medicaid Director Letter No. 06-001 (Feb. 2, 2006); CMS, Section 402 Demonstration
Application Template: Reimbursement of State Costs for Provision of Part D Drugs).

CMS required States to submit Medicare demonstration project claims directly to its contractor,
Public Consulting Group, which determined whether the claims were eligible for reimbursement.
CMS then reimbursed States for eligible claims.

Vermont’s Participation in the Medicare Part D Demonstration Project

On February 14, 2006, the Department of Vermont Health Access (the State agency) submitted its
Medicare demonstration application to CMS. The State agency agreed to pay for full-benefit
dually eligible beneficiaries’ drug claims and for partial-benefit Medicare Part D enrollees entitled
to assistance from Vermont’s State Pharmaceutical Assistance Program. The State agencies
participation in the demonstration project covered drug claims with dates of service from January 1
through March 31, 2006, and related administrative costs from January 1 through September 1,
2006.

The State agency processed drug claims for full-benefit dually eligible beneficiaries through its
Medicaid point-of-sale system and claimed the amounts on its Forms CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (Forms CMS-64),
which CMS subsequently reimbursed at Vermont’s Federal medical assistance percentage
(FMAP). 2 CMS officials were aware that some States had submitted demonstration project costs
previously claimed on the Forms CMS-64 and orally advised the States to appropriately adjust
their Forms CMS-64 to remove claims paid by Medicare.

The State agency submitted Medicare demonstration project claims for drug costs incurred on
behalf of full-benefit dually eligible beneficiaries to the Public Consulting Group and
subsequently received reimbursement from CMS totaling $5,440,747.




2
The FMAP determines the Federal share of the Medicaid program. During our audit period (January 1 through
March 31, 2006), the FMAP for drug claims in Vermont was 58.49 percent.



                                                      2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.

Scope

The audit covered the State agency’s 89,392 drug claims for full-benefit dually eligible
beneficiaries submitted under the Medicare demonstration project from January 1 through March
31, 2006. We did not review the State agency’s drug claims for partial-benefit dually eligible
beneficiaries, nor did we determine whether pharmacies attempted to bill beneficiaries’ Medicare
Part D plans before relying on State payment.

The audit also covered the State agency’s Medicare demonstration project drug costs for the
period January 1 through March 31, 2006, claimed on the Forms CMS-64. CMS reimbursed the
State agency a total of $5,440,747 for Medicare demonstration project drug costs. We reviewed
only the State agency’s claims for drug costs. We did not review whether the State agency
complied with the Medicare demonstration project requirements for the State Pharmaceutical
Assistance Program and administrative costs. We reviewed only those internal controls
necessary to achieve our objectives.

We performed fieldwork at the State agency’s offices in Williston, Vermont, from January 2010
through June 2010.

Methodology

To accomplish our objectives, we:

     •   reviewed applicable laws, regulations, and guidance;

     •   interviewed State agency officials to (1) obtain an understanding of their process for
         identifying and submitting full-benefit dually eligible beneficiary claims under the
         Medicare demonstration project and (2) determine whether they separated Medicare
         demonstration project claims from those payable under other programs;

     •   obtained from CMS a database of 89,392 drug claims for full-benefit dually eligible
         beneficiaries paid to the State agency under the Medicare demonstration project for the
         period January 1 through March 31, 2006;

     •   reviewed all claims paid to the State agency under the Medicare demonstration project
         to determine if the non covered drug category, Benzodiazepine, was reimbursed under
         Medicare Part D;


                                                3
     •   reviewed a judgmentally selected sample of 30 drug claims paid to the State agency
         under the Medicare demonstration project to determine whether the dates of service
         were during the Medicare demonstration project’s effective dates and any cost-sharing
         amounts (copayments) on the part of the beneficiary were not included in the claim;

     •   reviewed a judgmentally selected sample of 30 beneficiaries whose drug claims were
         paid under the Medicare demonstration project to determine whether these beneficiaries
         were dually eligible; and

     •   reviewed guidance issued by the State agency to the pharmacies, including guidance
         requiring them to submit Medicare Part D eligible drug claims to Medicare Part D plans
         before billing the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency complied with certain provisions of the Medicare demonstration project
application when claiming drug costs for full-benefit dually eligible beneficiaries. However, the
State agency claimed some costs for drugs precluded from Medicare Part D reimbursement.

MEDICARE DEMONSTRATION PROJECT DRUG CLAIMS

The State agency complied with certain provisions of the Medicare demonstration application
when claiming drug costs for full-benefit dually eligible beneficiaries. Specifically, the State
agency (1) provided specific information to CMS on Part D drug claims, (2) separated
demonstration project claims from those payable under other programs, (3) submitted claims
only for drug costs incurred during the demonstration project’s effective dates, and (4) only
claimed drug costs to the Medicare demonstration project.

MEDICARE DEMONSTRATION PROJECT DRUG COSTS

Pursuant to Section 1860D-4 (4)(b)(3)(C)(ii) of the MMA states that the United States
Pharmacopeia (USP) shall develop a list of categories and classes reflecting any changes in
therapeutic uses of and the additions of new covered Medicare Part D drugs. The USP does not
include drug class Benzodiazepine in its comprehensive listing of approved Medicare Part D
drugs. In addition, State Medicaid Directors Letter # 06-001, CMS stated that the Medicare
demonstration project would not include reimbursement for drugs that were not allowable for
Medicare Part D. Furthermore, the State’s Medicare demonstration project application contains
a provision stating it would not claim drugs that were unallowable to Medicare Part D.




                                                 4
The State agency claimed costs for drugs excluded from Medicare Part D reimbursement.
Specifically, the State agency was reimbursed $70,027 for Benzodiazepines through the
Medicare demonstration project. According to State agency officials, the State agency was
improperly reimbursed for excluded Medicare Part D drugs through the Medicare demonstration
project because of an administrative oversight.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $70,027 to the Federal Government and

   •   strengthen its internal controls to ensure that only allowable drugs are claimed from
       Medicare.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                                        APPENDIX: STATE AGENCY COMMENTS

                                                 
 
State of Vermont                                                                                                                       Agency of Human Services              
Department of Vermont Health Access            [Phone]  802­879­5900                                                                                          
312 Hurricane Lane, Suite 201                                          [Fax]  802­879­5651                                                
Williston  VT  05495­2807 
http://dvha.vermont.gov 

August 24, 2010


Mr. Michael J. Armstrong
Regional Inspector General for Audit Services
Office of Inspector General, Region I
John F. Kennedy Building, Room 2425
Boston, MA 02203

Re: Report Number A-01-10-00600

Dear Mr. Armstrong

We have completed our review of the Office of Inspector General draft report entitled Review of
Vermont’s Compliance With the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare Demonstration Project Requirements.

According to the findings, DVHA was in compliance with the provisions of the demonstration
project with one exception whereby DVHA claimed costs for benzodiazepines which are
excluded from Medicare Part D reimbursement. As stated in the draft report, our claims for full
benefit duals were submitted, as required by CMS, to the CMS contractor Public Consulting
Group who was responsible for determining which drugs were reimbursable by CMS.
Notwithstanding the Public Consulting Group’s responsibilities, the Department of Vermont
Health Access concurs with the summary of findings and the recommendation put forth in this
report and will reimburse the $70,027 to the Federal Government.

In terms of corrective action, since reimbursement of Medicare Part D claims paid during the
demonstration project period was a one-time event we do not expect this discrepancy could
recur. Additionally, our prescription benefit manager, MedMetrics Health Partners implemented
system edits at the end of the demonstration project period that assure that DVHA reimburses
only excluded Medicare Part D drugs for our full benefit dual population.

We appreciate the opportunity to respond to the OIG’s findings in this matter.

Sincerely,

SUSAN W. BESIO

Susan W. Besio, Ph.D.
Commissioner
